         ~

         NATIONAL 

         ARCHIVES 

      OFFICE of 

 INSPECTOR GENERAL 

Date 	       September 11, 2014

Reply to: 	 Office   of Inspector General (OIG)

Subject : 	 Management   Letter No. 14-18, Customer Service Weaknesses at the National Personnel
             Records Center

To 	         Jay Trainer, Executive of Agency Services (A)

The purpose of this management letter is to bring to your attention customer service concerns
and potential weaknesses expressed to us by veterans contacting the National Personnel Records
Center (NPRC). Over the past few months, the Office oflnspector General's (OIG) hotline has
seen an increase in the number of complaints received from veterans encountering problems
trying to obtain their records from the NPRC, and insisting they were unable to receive
satisfactory customer service regarding their requests. Veterans indicated (1) they received no
response to the status of their requests, (2) they were unable to make a formal complaint, or (3)
their requests were either processed partially, incorrectly, or not at all. Additionally, many
veterans complained their requests took an extremely long time to process.

Veterans noted frustration when trying to contact the NPRC' s Customer Service Center.
Veterans can contact the Center via telephone or email, but indicated they were unable to reach
representatives, experienced long wait times, or their emails were unanswered. When we
reviewed the Daily Call Center- Queue Summary Report for the period of October 1, 2013
through June 30, 2014, we noted 176,136 calls were not queued when the Center was contacted.
A call not queued means the system never was able to even intake the call, thus the caller was
not able to get through at all. In fact, only 104,096 calls were received and queued by the system
during the period. However, even of these calls, 36,243 (35%) were abandoned before any
conversation took place. We have also been informed some veteran email requests going back to
January 2014 have yet to be answered.

Veterans are also not receiving complete information about their requests. For instance, when
one veteran requested medical records from a specific military treatment facility from the NPRC,
a form letter was sent indicating the records could not be located. However, while those specific
records could not be found, NARA's systems indicated records for that veteran from that facility
for that time period did exist. Yet this important information was not communicated in the
original form letter to the veteran. When we asked an NPRC customer service representative if
they could send the veteran a letter expressing these facts, we were informed the representative
was not allowed to by their supervisor. We were informed the veteran was denied benefits
because he could not provide the necessary medical records.



                                    NARA's web site is http://www.nara.gov
 When the OIG contacted NPRC senior management, it was apparent they were still actively
 trying to help this particular veteran. However, there appears to be a gap between the attitude
 and direction of senior management and the actual service provided in day to day operations.
 Thus the communication employees receive from their department managers may not always
 align with senior management expectations. During our discussions with NPRC senior
 management, we indicated NPRC's form letters may need to be customized when there is
 additional information available that may help a veteran. Senior management agreed.

 We also received complaints of veterans receiving other's records, including disclosures of
 personal information. The OIG previously reported on erroneous disclosures by the NPRC, but
 the condition still exists. In FY 2013 the NPRC serviced 1,132,525 million requests with senior
 management indicating there were 162 known reports of erroneous release. However, this does
 not take into account individuals not reporting back to NARA when they receive someone else's
 records. While the reported releases equate to a 99.99% accuracy rate for the NPRC, any
 improper release of personal data should be of concern to management.

 We suggest you consider the following to help address the customer service weaknesses at the
 NPRC:

     • 	 Identify a plan to reduce the number of calls not queued, abandoned, and emails not
         answered.
     • 	 Identify a plan to adequately staff the Customer Service Center.
     • 	 Provide more detailed guidance and allow customer service representatives the
         opportunity to provide accurate details on requests, including the ability to make changes
         to form letters.

 It is imperative for veterans to receive the best customer service when contacting the NPRC. We
 look forward to your prompt response on how you are going to address these critical weaknesses.
 The Customer Service and Call Center Operations may be included in a future audit plan.

 If you have any questions or require additional information regarding this letter, please
 contact me. As with all OIG products, we will determine what information is publicly posted
 on our website from this management letter. Should you or management have any redaction
 suggestions based on FOIA exemptions, please submit them to my counsel within one week
 from the date of this letter. Should we receive no response within this time frame, we will
 interpret that as confirmation NARA does not desire any redactions to the posted report.


~L~/
JAMESSP~-"" ~
 Acting Inspector General

 cc: David Ferriera, Archivist of the United States (N) 

     Jay Bosanko, Chief Operating Officer (C) 




                                                Page2 

                                 NARA's web site is http://www.nara.gov 

